No.
I

IN THE
SUPREME COURT OF THE UNITED STATES

RAFAEL VERDEJO RUIZ, Petitioner
v.
UNITED STATES, Respondent

PROOF OF SERVICE
17^

I, Rafael Verde jo Ruiz, do swear that on this \U

day ot June 2021, as

required by Supreme Court Rule 29 I have served one original and one copy of the
Petition for a Writ of Certiorari and Motion for leave to proceed in forma
pauperis to the clerk of the United States Supreme Court and opposing counsel by
depositing in the inmate dropbox with postage prepaid first-class. Also, I have
sent the copy on this same day and via same form of service dropping in the
inmate dropbox with postage prepaid first-class to the Solicitor General of the
United States, Room 5614, Department of Justice, 950 Pennsylvania Ave • * N.W • )
Washington, DC 20530-0001.

I act without assistance

of counsel and act Pro Se

in this case. I declare under penalty of perjury that the above and foregoing is
true and correct. 28 USC § 1746. Signed,

670-035

RECEIVED
IUN \ 5 2®

No.

IN THE
SUPREME COURT OF THE UNITED STATES

RAFAEL VERDEJO RUIZ, Petitioner
v.
UNITED STATES, Respondent

. \

PROOF OF SERVICE
I,

Rafael Verde jo Ruiz, do swear that on this

day of May 2021, as

required by Supreme Court Rule 29 I have served one original and one copy of the
Petition for a Writ of Certiorari and Motion for leave to proceed in forma
pauperis to the clerk of the United States Supreme Court by depositing in the
inmate dropbox with postage prepaid first-class. I act without assistance
of counsel and act Pro Se in this case. I declare under penalty of perjury that
the above and foregoing is true and correct. 28 USC § 1746. Signed,

-035

